No.
3fn tfie

Supreme Court of tlje SHntteb States
LI LI,
Petitioner,
v.

J. C. PENNEY COMPANY, INCORPORATED,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

APPENDIX TO THE PETITION
FOR A WRIT OF CERTIORARI
LI LI
Pro Se
9273 Buffalo Speedway
Houston, Texas 77025
Tel: (281) 529-5508
appealjcpopco@yahoo.com

TABLE OF APPENDICES

APPENDIX A - Order dismissing the appeal for lack of jurisdiction, Li
Li v. J. C. Penney Company, Incorporated, No. 21-40046, U. S. Court of
Appeals for the Fifth Circuit, February 17, 2021...........................................

la

APPENDIX B - Order dismissing the appeal and terminating all
pending motions, Ad Hoc Committee of Equity Interest Holders v. J. C.
Penney Company, Incorporated, No. 2:20-cv-280, U. S. District Court
for the Southern District of Texas, January 13, 2021 ..............................

2a

APPENDIX C - Order denying Ad Hoc Equity Committee’s emergency
motion to vacate final order, In Re J. C. Penney Company, Incorporated,
No. 20-20182, U. S. Bankruptcy Court for the Southern District of Texas,
November 12, 2020..................................................................................................

10a

APPENDIX D — Order denying Ad Hoc Equity Committee’s employment
and retention of counsels to pursue an appeal, In Re J. C. Penney
Company, Incorporated, No. 20-20182, U. S. Bankruptcy Court for the
Southern District of Texas, December 14, 2020..............................................

12a

Case: 21-40046

Document: 00515745863

Page: 1

Date Filed: 02/17/2021

la
Appendix A

Untteb H>tate£ Court of Appeals
for tfje Jftftlj Circuit

9

rg

.OS

$0fellv5£

No. 21-40046

A True Copy
Certified order issued Feb 17, 2021

Clerk, U.S. Court of Appeals, Fifth Circuit

In the Matter of: J. C. Penney Company, Incorporated
Debtor,
Li Li,
Appellant,
versus
J.C. Penney Company, Incorporated
Appellee.

Appeal from the United States District Court
for the Southern District of Texas
USDC No. 2:20-CV-280

Before Dennis, Southwick, and Engelhardt, Circuit Judges.
Per Curiam:
IT IS ORDERED that the opposed motion of appellee to dismiss
the appeal for lack of jurisdiction is GRANTED.

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 1 of 7
United States District Court

2a

Southern District of Texas

Appendix B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
AD HOC COMMITTEE OF EQUITY
INTEREST HOLDERS, et al,
Appellants,
VS.

Defendants.

January 13, 2021
Nathan Ochsner, Clerk

§
§
§
§
§

J.C. PENNEY COMPANY, INC., et al,

ENTERED

CIVIL ACTION NO. 2:20-CV-280

§
§
§
§

ORDER
Before the Court are Debtor, J.C. Penney Company, Inc.’s Motion to Dismiss
Appeal as Moot and for Lack of Standing (D.E. 44) and Walker & Patterson’s
Emergency Motion to Withdraw as Counsel for Appellant (D.E. 53).

Appellant

represents itself to be an ad hoc committee of equity interest holders or shareholders of
the Debtor. D.E. 2. According to Appellant’s withdrawing counsel, the committee is led
by an individual named Mr. Niko Celentano (without any indication that he is a licensed
attorney) and the committee does not intend to secure new counsel or prosecute this
appeal. D.E. 53, 58.
It is not clear whether any of the members of the committee are business entities
that must be represented by counsel or natural persons who may appear pro se. See
generally, Sw. Exp. Co., Inc. v. I.C.C., 670 F.2d 53, 55 (5th Cir. 1982). Nevertheless, an
individual named Li Li has filed a response to the motion to dismiss (the only timelyfiled opposition filing), purporting to be a shareholder and member of AHEC, and
proceeding pro se as an appellant. D.E. 51; see also, D.E. 57 (Li Li’s Appellant’s Brief).
4/7
21-40046.10425

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 2 of 7

3a
Because Li Li’s response does not adequately address the grounds for dismissal, the
Court GRANTS the motion to dismiss (D.E. 44) without addressing whether Li Li may
act alone as an Appellant on the record of this case. And because the motion to withdraw
(D.E. 53) is unopposed, it is GRANTED.
DISCUSSION
A. Statutory Mootness
AHEC filed this appeal to halt the bankruptcy court-approved sale of virtually all
of the assets of the Debtor. AHEC argued, among other more technical bankruptcy
issues, that the sale proceeds were grossly inadequate and unfair to creditors and equity
interest holders, allowing for no distributions to equity interests holders through the
bankruptcy proceeding. After an emergency temporary injunction hearing, the Court
refused to enjoin the sale and the sale has since been consummated. D.E. 38, 44, p, 28
(Affidavit of Wafford).

As a result, the Debtor claims that this appeal should be

dismissed on the basis of statutory mootness. 11 U.S.C. §§ 363(m), 364(e).
The statute assures purchasers that once the bankruptcy court
approves the sale and it is consummated (that is, the order is
not stayed), then no appellate court can later second-guess the
deal. The cost, of course, is disposing of the full judicial
review for legal accuracy that typically follows a trial court’s
ruling. But Congress thought that trade was worth making to
encourage buyers to come to the table ready to revitalize
useful assets, as those buyers might otherwise stay away
when a transaction remains shrouded in legal uncertainty. The
Bankruptcy Code thus entrusts review of a sale solely to the
bankruptcy court’s in-the-moment judgment unless a stay is
obtained that prevents the sale from closing prior to appellate
review.
Matter ofSneed Shipbuilding, Inc., 916 F.3d 405, 409-10 (5th Cir. 2019).
2/7
21-40046.10426

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 3 of 7

4a
Li Li argues that § 363(m) mootness does not apply because the transaction does
not reflect a purchase “in good faith.” The Debtor argues that a good faith challenge may
not be raised for the first time on appeal. In re Ondova Ltd. Co., 620 F: App’x 290, 292
(5th Cir. 2015); see also, In re Ginther Trusts, 238 F.3d 686, 689 (5th Cir. 2001). Li Li
has not countered this issue by demonstrating that a good faith issue was raised in the
Bankruptcy Court proceeding.
Li Li further argues that consummated transactions may be unwound, citing In re
Tribune Media Co., 799 F.3d 272, 281 (3d Cir. 2015). Tribune permitted a claim for
disgorgement of plan distributions to creditors in connection with a contractual claim by
the trustees. The legal theory involved was equitable mootness with respect to a plan
confirmation, not statutory mootness regarding a sale of assets. Consequently, Tribune
does not negate the Debtor’s mootness argument.
B. Standing
The Debtor also argues that the equity interest holders that make up AHEC do not
have standing to appeal the order of the bankruptcy court under the “person aggrieved”
test, which limits appellate rights in order to effectuate the intended equitable efficiencies
of bankruptcy proceedings. The record of the bankruptcy hearing by which the sale was
approved, uncontradicted by any evidence produced in the stay hearing in this Court,
demonstrated that the Debtor’s assets were insufficient to allow any recovery for equity
interest holders under any available scenario. Consequently, they have no pecuniary
interest to support standing. Li Li has not addressed this argument.

3/7
21-40046.10427

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 4 of 7

5a
Standing to appeal a bankruptcy court decision is a question of law. Furlough v.
Cage (In re Technicool Sys., Inc.), 896 F.3d 382, 385 (5th Cir. 2018). And it involves a
bankruptcy-specific test.1 The bankruptcy court granted AHEC “interested party” status,
with the right to participate in the decision at the trial stage.

11 U.S.C. § 1109(b).

However, that does not translate into a right to appeal as to AHEC or any of the
committee members.
Bankruptcy cases often involve numerous parties with
conflicting and overlapping interests. Allowing each and
every party to appeal each and every order would clog up the
system and bog down the courts. Given the specter of such
sclerotic litigation, standing to appeal a bankruptcy court
order is, of necessity, quite limited.
Furlough, 896 F.3d at 385; see also, In re Coho Energy Inc., 395 F.3d 198, 202 (5th Cir.
2004); Matter ofFondiller, 707 F.2d 441, 443 (9th Cir. 1983); In re AFY, 734 F.3d 810,
824 (8th Cir. 2013) (specifically distinguishing status as a party-in-interest from a personaggrieved).
The limited right to appeal is afforded to “persons aggrieved by an order”—
language the courts have carried through subsequent Bankruptcy Code amendments from
the Bankruptcy Act of 1898. Fondiller, 707 F.2d at 443; see also, AFY, 734 F.3d at 824;
In re EToys, Inc., 234 Fed. App'x 24, 25 (3d Cir. 2007); In re Saldana, 534 B.R. 678, 684
(N.D. Tex. 2015). According to this test, “appellant must show that he was ‘directly and

Article III standing under Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992) (listing the irreducible
minimum of constitutional standing) does not apply. Furlough, 896 F.3d at 385 n.4 (citing Rohm & Hass Tex., Inc.
v. Ortiz Bros. Insulation, 32 F.3d 205, 210 n.18 (5th Cir. 1994) (explaining that “Article III is inapplicable to
bankruptcy courts”).

4/7
21-40046.10428

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 5 of 7

6a
adversely affected pecuniarily by the order of the bankruptcy court’ in order to have
standing to appeal.” Coho Energy, 395 F.3d at 203 (quoting Fondiller, 707 F.2d at 443).
The consensus in the caselaw is that status as a shareholder, alone, is not sufficient
to demonstrate a direct and adverse pecuniary effect necessary for standing. The
shareholder's interest is derivative, not direct. See e.g., AFY, 734 F.3d at 820; EToys, 234
Fed. App'x at 25 (citing Kauffman v. Dreyfus Fund, Inc., 434 F.2d 727, 732 (3d Cir.
1970) (“A stockholder of a corporation does not acquire standing to maintain an action in
his own right, as a shareholder, when the alleged injury is inflicted upon the corporation
and the only injury to the shareholder is the indirect harm which consists in the
diminution in value of his corporate shares resulting from the impairment of corporate
assets.”); Hardes Holding, LLC v. Sandton Credit Solutions Master Fund, III, LP, 3:19CV-3009-RAL, 2019 WL 6347775, at *4 (D.S.D. Nov. 27, 2019) (“Under the
shareholder standing rule, shareholders cannot appeal a bankruptcy court decision if they
have only a derivative interest in the outcome.”).
The Fifth Circuit has acknowledged only one limited exception to this rule: In re
First Colonial Corp. of America, 544 F.2d 1291 (5th Cir. 1977), superseded by statute on
other grounds as recognized by In re Woerner, 783 F.3d 266, 274 (5th Cir. 2015) (en
banc). In that case, the shareholder was permitted to object to the trustee's attorney's fees
only because of the unique situation presented by the trustee's apparent conflict of
interest—an issue not presented here.
In another unique case, a sister court allowed appellate standing to a creditor,
based on a debtor's shareholder interest. Saldana, 534 B.R. at 684. There, a divorced
5/7
21-40046.10429

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 6 of 7

7a
wife was a creditor in the divorced husband's bankruptcy case. He had also placed two of
his companies in bankruptcy and the cases were jointly administered. The husband's
bankruptcy estate stood to recover equity from one related company's estate, which could
then be used to fund her claim as her husband's creditor. Under those circumstances, she
was granted standing to enforce her claim, through the husband's equity interest. Again,
no such scenario is operative here.
Another district court has suggested that a shareholder might have standing if it
can show that there was sufficient equity in the debtor's estate to make a difference to the
value of its shares. See generally, In re Paragon Offshore PLC, 597 B.R. 748, 758 (D.
Del. 2019). The equity holder did not have standing because the debtor's liabilities
exceeded its assets and the plan of reorganization would under no circumstances provide
for a recovery to him. In comparison to the law set out above, this test is not supported by
the majority of the courts. And even if it were an appropriate method for demonstrating
standing, Li Li has failed to provide any evidence on which this Court may find the
Debtor’s assets to exceed its liabilities. Therefore, Li Li has not demonstrated standing.
CONCLUSION
For the reasons set out above, the Court GRANTS the Debtor’s motion (D.E. 44)
and DISMISSES this appeal. The Court further GRANTS the motion to withdraw (D.E.
53) and directs the Clerk of Court to substitute Mr. Niko Celentano as the contact person
for AHEC. In the event that AHEC seeks to participate further in this action without
licensed legal representation, the Court ORDERS that any paper filed on behalf of AHEC

6/7
21-40046.10430

Case 2:20-cv-00280 Document 63 Filed on 01/13/21 in TXSD Page 7 of 7

8a
demonstrate that right. This Order terminates all pending motions and this action is
terminated.
ORDERED this 13 th day of January, 2021.

NElkVA GONZALBSRAMOS
UNITED STATES DISTRICT JUDGE

7/7
21-40046.10431

Case 2:20-cv-00280 Document 64 Filed on 01/13/21 in TXSD Page 1 of 1
United States District Court
Southern District of Texas

9a

ENTERED
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION
AD HOC COMMITTEE OF EQUITY
INTEREST HOLDERS, et al,
Appellants,
VS.

Defendants.

Nathan Ochsner, Clerk

§
§
§
§
§

JC. PENNEY COMPANY, INC., et al,

January 13, 2021

CIVIL ACTION NO. 2:20-CV-280

§
§
§
§

FINAL JUDGMENT
Pursuant to the Court’s Order (D.E. 63), the Court enters final judgment
dismissing this action.
ORDERED this 13th day of January, 2021.
/ JpAAstK. /alofvyi Qj^Jf&rYQry.

NElWA GONZALES RAMOS
UNITED STATES DISTRICT JUDGE

1/1
21-40046.10432

Case 20-20182 Document 1825 Filed in TXSB on 11/12/20 Page 1 of 2
10a

Appendix C
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI DIVISION

ENTERED
11/12/2020

)

In re:

)

Chapter 11

)

J. C. PENNEY COMPANY, INC., et al.,

i

Debtors.

)

Case No. 20-20182 (DRJ)

)
)
)

(Jointly Administered)
Re: Docket No. 1573

ORDER DENYING AD HOC EQUITY COMMITTEE’S EMERGENCY MOTION TO
VACATE FINAL ORDER (I) AUTHORIZING THE DEBTORS TO (A) OBTAIN
POSTPETITION FINANCING AND (B) UTILIZE CASH COLLATERAL, (II)
GRANTING ADEQUATE PROTECTION TO THE PREPETITION SECURED
PARTIES, (III) MODIFYING THE AUTOMATIC STAY, AND (IV) GRANTING
___________________________
RELATED RELIEF______________________________
Came on for consideration the Ad Hoc Equity Committee’s emergency motion to vacate
final order (i) authorizing the debtors to (a) obtain postpetition financing and (b) utilize cash
collateral, (ii) granting adequate protection to the prepetition secured parties, (iii) modifying the
automatic stay, and (iv) granting related relief (the “Motion”!
After hearing, it is ORDERED THAT:
1.

For the reasons stated on the record the Motion is DENIED.

2.

This Court retains exclusive jurisdiction with respect to all matters arising from or

related to the implementation, interpretation, and enforcement of this Order.
Signed: November 12, 2020.

DAVID R. JONES
//
UNITED STATES BANKRUPTCY JUDGE
l

A complete list of each of the Debtors in these chapter 11 cases may be obtained on the website of the Debtors’
claims and noticing agent at http://cases.primeclerk.com/JCPennev. The location of Debtor J. C. Penney
Company, Inc.’s principal place of business and the Debtors’ service address in these chapter 11 cases is 6501
Legacy Drive, Plano, Texas 75024.

Case 20-20182 Document 1825 Filed in TXSB on 11/12/20 Page 2 of 2
11a

AGREED TO AS TO FORM ONLY:
Is/ Matthew D. Cavenaugh
JACKSON WALKER L.L.P.
Matthew D. Cavenaugh (TX Bar No. 24062656)
Jennifer F. Wertz (TX Bar No. 24072822)
Kristhy M. Peguero (TX Bar No. 24102776)
Veronica A. Polnick (TX Bar No. 24079148)
1401 McKinney Street, Suite 1900
Houston, Texas 77010
Telephone:
(713) 752-4200
Facsimile:
(713) 752-4221
Email:
mcavenaugh@jw.com
jwertz@jw.com
kpeguero@jw.com
vpolnick@jw.com

KIRKLAND & ELLIS LLP
KIRKLAND & ELLIS INTERNATIONAL LLP
Joshua A. Sussberg, P.C. (admittedpro hac vice)
Christopher Marcus, P.C. (admitted pro hac vice)
Apama Yenamandra (admitted pro hac vice)
601 Lexington Avenue
New York, New York 10022
Telephone:
(212) 446-4800
Facsimile:
(212) 446-4900
Email:
joshua.sussberg@kirkland.com
christopher.marcus@kirkland.com
apama.yenamandra@kirkland.com
Co-Counsel to the Debtors
and Debtors in Possession

Co-Counsel to the Debtors
and Debtors in Possession

OKIN ADAMS LLP
By: /s/ Matthew S. Okin
Matthew S. Okin
Texas Bar No. 00784695
mokin@okinadams. com
David L. Curry, Jr.
Texas Bar No. 24065107
dcurry@okinadams. com
Johnie A. Maraist
Texas Bar No. 24109505
j maraist@okinadams. com
1113 Vine St., Suite 240
Houston, Texas 77002
Tel: 713.228.4100
Fax: 888.865.2118
ATTORNEYS

FOR

THE

AD

HOC

COMMITTEE OF EQUITY INTEREST
HOLDERS

2

27310355v.l

Case<fcgffi0v£OCI!88O Q&oaaraetieaT5 FfW0GbmH2>CSB2QiitimSQO P&§§gL3Cbf)i2^^B^^
12a
Appendix D
IN THE UNITED STATED BANKRUPTCY COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
CORPUS CHRISTI

ENTERED
12/14/2020

IN RE:

§
§
§
§
§
§

J. C. PENNEY COMPANY, INC., et al,

Debtors.

CASE NO: 20-20182
CHAPTER 11
Jointly Administered
David R. Jones

ORDER
(Docket No. 1844)
The Court has considered the Ad Hoc Equity Committee’s Emergency Application for an
Order Pursuant to Section 328(A) of the Bankruptcy Code Authorizing the Employment and
Retention of Walker & Patterson, P.C. as Special Counsel (the “Application”). In the Application,
the Ad Hoc Equity Committee seeks to employ Walker & Patterson, PC on a contingency fee basis
to pursue an appeal. Specifically, the requested compensation arrangement is a “forty-five percent
(45%) contingent fee of any value created or obtained for the estate, or the equity interest holders, by
way of settlement, verdict, plan distribution or recovery, obtained on or after the date the Notice Of
Appeal is filed, for legal services performed in all appellate proceedings . . . provided, however, that
any value received by equity interest holders in excess of $300 million will be subject to a contingent
fee of twenty-five percent (25%).”
The Court previously entered orders requiring the Debtors to fund a total of $1 million of the
Ad Hoc Equity Committee’s professional fees and expenses. In consideration of the last increase, the
Ad Hoc Equity Committee agreed that it would not request any further funding. The Walker &
Patterson application runs counter to that agreement. To the extent that the Application relies on the
11 U.S.C. § 503(b)(3)(D) exception set forth in the Court’s order, the Ad Hoc Equity committee would
have to first establish the existence of a substantial contribution. The Court notes that nothing prevents
Walker & Patterson from being paid from the $1 million funded by the Debtors.
To the extent that the request seeks the assignment of an interest in the recovery of
shareholders, the Court lacks authority to impose the expenses of an ad hoc committee on non-debtor
parties. Individual shareholders may, of course, voluntarily agree to such an arrangement.1
Accordingly, it is ORDERED THAT:
1.

The application is denied without prejudice.

SIGNED: December 14, 2020.

DAVID R. JONES
if
UNITED STATES BANKRUPTCY JUDGE
The Court has reviewed the opinions of several shareholders that object to their interests being impaired by the
Walker & Patterson contingency fee.
21-40046.9367

